No. 19-185
IN THE SUPREME COURT OF THE UNITED STATES
_________________
KALEV MUTOND, ET AL., PETITIONERS
v.
DARRYL LEWIS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 26h day of May 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,000 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 26, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0185
MUTOND, KALEV, ET AL.
DARRYL LEWIS

JOHN P. ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5000
JOHN.ELWOOD@ARNOLDPORTER.COM
PRATIK A. SHAH
AKIN, GUMP, STRAUSS, HAUER & FELD LLP
2001 K STREET, NW
1333 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20006
202-887-4000
PSHAH@AKINGUMP.COM

